               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       New Castle and Greensburg, PA
              Consolidation

                       Audit Report




                                              August 16, 2013

Report Number NO-AR-13-004
                                                                       August 16, 2013

                                                     New Castle and Greensburg, PA
                                                                     Consolidation

                                                         Report Number NO-AR-13-004



BACKGROUND:
This audit responds to a request from         Pittsburgh Processing and Distribution
U.S. Senator Robert P. Casey, Jr. of          improved; and established AMP
Pennsylvania. The objective was to            guidelines were generally followed.
assess the consolidation of destinating
mail processing (delivered and sorted in      However, we found that the U.S. Postal
the local facilities jurisdiction) from the   Service did not terminate, seek buyout
New Castle Processing and Distribution        opportunities or sublet leases for
Facility - and the Greensburg Customer        facilities vacated as a result of the
Service Mail Processing Center - into         consolidation. Postal Service area and
the Pittsburgh Processing and                 facility officials did not coordinate to
Distribution Center.                          ensure that leases associated with the
                                              vacated facilities were properly
We also assessed compliance with              terminated or subleased. As a result, we
established Area Mail Processing              are questioning $978,954 in associated
guidelines. All three facilities are in the   lease costs.
Western Pennsylvania District of the
Eastern Area. The New Castle                  We also observed a security violation
Processing and Distribution Facility and      involving the safeguarding of Voyager
the Greensburg Customer Service Mail          eFleet cards used to purchase fuel or
Processing Center consolidations              repair services for Postal Service
occurred in July and August 2013.             vehicles at the Greensburg Post Office.
                                              As a result, we estimated that $636,000
WHAT THE OIG FOUND:                           in assets could be at risk.
A business case exists to support the
consolidation, which should produce a         WHAT THE OIG RECOMMENDED:
cost savings of about $3.3 million the        We recommended the vice president,
first year and $8.9 million annually in       Eastern Area, direct the Western
subsequent years.                             Pennsylvania District manager to
                                              coordinate with the Facility Service
Our analysis indicated that adequate          Office when rental space is vacated to
machine capacity and floor space exists       ensure appropriate lease termination
to process mail at the Pittsburgh P&DC;       actions are taken; take action to
customer service has not been                 sublease, buyout, or terminate lease
significantly impacted by the                 agreements for vacated facilities; and
consolidation; delayed mail declined          ensure Voyager eFleet cards are stored
after the consolidation; no employees         in a secure manner.
lost their job; overall efficiency at the     Link to review the entire report
August 16, 2013

MEMORANDUM FOR:           JOSHUA D. COLIN
                          VICE PRESIDENT, EASTERN AREA




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Audit Report – New Castle and Greensburg, PA
                          Consolidation (Report Number NO-AR-13-004)

This report presents the results of our audit of the New Castle and Greensburg, PA
Consolidation. The consolidation would combine the New Castle Processing and
Distribution Facility and the Greensburg Customer Service Mail Processing Center into
the Pittsburgh Processing and Distribution Center (Project Number 13XG023NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: David E. Williams, Jr.
    Linda M. Malone
    Robert Cintron
    Corporate Audit and Response Management
New Castle and Greensburg, PA Consolidation                                                                         NO-AR-13-004




                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Capacity .......................................................................................................................... 2

Customer Service ............................................................................................................ 3

Employee Impact ............................................................................................................ 6

Efficiency ......................................................................................................................... 7

Cost Savings ................................................................................................................... 7

AMP Guidelines .............................................................................................................. 8

Facility Leases .............................................................................................................. 10

Other Matters - Security Violation.................................................................................. 12

Recommendations ........................................................................................................ 13

Management’s Comments ............................................................................................ 13

Evaluation of Management’s Comments ....................................................................... 14

Appendix A: Additional Information ............................................................................... 15

   Background ............................................................................................................... 15

   Objectives, Scope, and Methodology ........................................................................ 17

   Prior Audit Coverage ................................................................................................. 18

Appendix B: Monetary and Other Impacts..................................................................... 22

Appendix C: Management's Comments ........................................................................ 23
New Castle and Greensburg, PA Consolidation                                                           NO-AR-13-004



Introduction

This report presents the results of our audit of the New Castle, PA Processing and
Distribution Facility (P&DF) and Greensburg, PA Customer Service Mail Processing
Center (CSMPC) consolidation of destinating mail1 operations into the Pittsburgh, PA
Processing and Distribution Center (P&DC) (Project Number 13XG023NO000). This
report responds to a request from U.S. Senator Robert P. Casey, Jr., of Pennsylvania,
to review the consolidation.2 The New Castle P&DF and the Greensburg CSMPC
consolidations occurred in July and August, 2013. This audit addresses operational and
financial risk. See Appendix A for additional information about this audit.

The U.S. Postal Service developed a formal process for the review and implementation
of AMP proposals. This process is defined in Handbook PO-408.3 The Postal Service
uses the AMP process to determine whether it can consolidate from one or more postal
facilities into other facilities to:

   Increase operational efficiency and improve productivity through more efficient use
    of assets, such as equipment, facilities, staffing, and transportation.

   Provide affected career employees with opportunities for job reassignments.

   Provide Postal Service customers with the same high-quality service they expect.

   Ensure overall costs reductions.

Conclusion

A business case supporting the consolidation exists and we estimate that it will result in
a cost savings of about $3.3 million the first year and $8.9 million in subsequent years.
Our analysis also concluded that:

   Adequate machine capacity and floor space exists to process mail at the Pittsburgh
    P&DC.




1
  Incoming mail arriving for its point of final delivery (destination) through a processing facility.
2
  Our objectives were to assess the consolidation of destinating mail processing operations from the New Castle
P&DF and Greensburg CSMPC into the Pittsburgh P&DC and assess compliance with established Area Mail
Processing (AMP) guidelines.
3
  Handbook PO-408, Area Mail Processing Guidelines, March 2008. An AMP feasibility study determines whether
there is a business case for relocating processing and distribution operations from one location to another. An AMP
feasibility study must be conducted when a new facility project incorporates operations from two or more offices.
                                                                1
New Castle and Greensburg, PA Consolidation                                                        NO-AR-13-004




   Customer service scores measured by the External First-Class (EXFC)
    Measurement System4 were not significantly impacted by the consolidation.

   Delayed mail declined after the consolidation.

   No employee lost their job, although affected employees were reassigned to facilities
    within a 50-mile radius.

   Overall productivity at the Pittsburgh P&DC improved.

   Employees generally followed established AMP guidelines.

In addition, the Postal Service did not terminate or sublet leases for vacated facilities5
resulting from the consolidation. Postal Service area and facility officials did not
coordinate to ensure that leases associated with the vacated facilities were properly
terminated or subleased. As a result, we are questioning $978,954 in associated lease
costs. See Appendix B for a detailed explanation of questioned costs. In other matters,
we observed a security violation involving the safeguarding of Voyager eFleet cards
(credit cards used to purchase fuel and repair costs for Postal Service vehicles) at the
Greensburg Post Office. As a result, we estimated that $636,000 in assets could be at
risk. See Appendix B for a detailed explanation of assets at risk.

Capacity

Adequate machine capacity and floor space exists at the Pittsburgh P&DC6 to process
mail volume from the New Castle P&DF and Greensburg CSMPC.7 With the additional
equipment the Pittsburgh P&DC received, as a result of the consolidation, adequate
capacity exists to sort the volume arriving from the New Castle P&DF and the
Greensburg Post Office. Additionally, after the consolidation, the Pittsburgh P&DC still
had additional capacity on all of its major equipment (see Table 1).




4
  A system where a contractor performs independent service performance tests on certain types of First-Class Mail
(letters, flats, postcards) deposited in collection boxes and business mail chutes. It provides national, area,
performance cluster, and city estimates, which are compared with the Postal Service’s service goals. A consumer
advocate releases the results to the public quarterly.
5
  The Greensburg CSMPC, New Castle Carrier Annex, and parking area.
6
  Maximum capacity was calculated by either reducing idle time or expanding the window of operation.
7
  To improve mail flow, management requested tray sorters, unsleevers, and several other new pieces of equipment.
  The additional equipment, along with connections to existing systems, has a one-time cost of $5,576,300.

                                                        2
 New Castle and Greensburg, PA Consolidation                                                       NO-AR-13-004



                               Table 1. Equipment Excess Capacity

                         Number of           Actual            Maximum               Excess
     Equipment           Machines          Throughput          Capacity             Capacity           Percentage
Automated Facer
                               9            137,978,501         232,186,631           94,208,130        68.28%
Canceller System 200
Automated Flats                4            106,966,398         127,891,077           20,924,679        19.56%
Sorting Machine
Combined Input                 3            117,175,105         191,648,465           74,473,360        63.56%
Output Sub-System
Delivery Bar Code
                              48           1,668,249,297      2,557,169,555          888,920,258        53.28%
Sorter
Delivery Input Output
                               6            225,882,707         269,949,178           44,066,471        19.51%
Sub-system
Source: Enterprise Data Warehouse (EDW).

                    Figure 1. Excess Floor Space at the Pittsburgh P&DC




        Source: U.S. Postal Service Office of Inspector General (OIG), photograph taken May 2, 2013.

 Customer Service

 Customer service scores measured by the EXFC measurement system were not
 significantly impacted by the consolidation. As shown in Table 2, 11 out of 21 overnight,
 2-, and 3-day scores serviced by the impacted ZIP Codes increased, while 10 service
 scores declined when compared to the same period last year.

                                                        3
  New Castle and Greensburg, PA Consolidation                                                      NO-AR-13-004



                                            Table 2. EXFC Scores

                                                          Before Consolidation           After Consolidation
     EXFC                                                Fiscal Year (FY) 2012,               FY 2013,
    Standard                     Facility                Quarters (Qs) 1 and 2               Qs 1 and 2
                      Pittsburgh P&DC           150                             95.87                      95.75
                                                151                             96.96                      96.62
                                                152                             96.24                      95.72
                          Greensburg
    Overnight
                           CSMPC                156                             95.27                      95.64
                      New Castle P&DF           160                             95.61                      92.37
                                                161                             92.83                      96.16
                                                162                             98.44                      93.30
                      Pittsburgh P&DC           150                             92.55                      94.22
                                                151                             94.31                      95.85
                                                152                             93.52                      93.16
                          Greensburg
      2-Day
                           CSMPC                156                             91.91                      92.80
                      New Castle P&DF           160                             95.55                      93.67
                                                161                             92.64                      95.21
                                                162                             92.44                      95.24
                      Pittsburgh P&DC           150                             91.99                      91.73
                                                151                             91.87                      91.78
                                                152                             91.75                      92.59
                          Greensburg
      3-Day                CSMPC                156                             89.37                      92.67
                          New Castle
                            P&DF                160                             92.90                      88.58
                                                161                             87.89                      90.93
                                                162                             95.04                      96.70
Note: Red numbers show the service scores which declined from FY 2012, Qs 1 and 2 compared to the same period in
FY 2013. Additionally, green service scores show an increase from FY 2012, Qs 1 and 2 compared to the same period
in FY 2013.
Source: EDW.




                                                         4
New Castle and Greensburg, PA Consolidation                                           NO-AR-13-004




Priority Mail

The Pittsburgh P&DC experienced a decline in Priority Mail® air and surface service
scores. Priority Mail service scores declined for FY 2013, Qs 1 and 2, compared to the
same period in FY 2012 (see Table 3).

                                   Table 3. Priority Service


                                     Q1                               Q2

            Type          FY 2012             FY 2013       FY 2012        FY 2013

             Air           82.46               77.26         92.16          86.02

          Surface          91.28               90.28         95.62          93.33
         Source: EDW.

Delayed Mail

Delayed mail decreased after the consolidation. For example, compared to the period
prior to the consolidation, delayed mail volume totaled 77 million first-handled pieces
(FHP) and declined to 64.6 million FHP after the consolidation, a 16 percent decrease.
Similarly, delayed mail as a percentage of total FHP volume declined from 6.45 percent
of FHP volume to 4.9 percent of FHP volume, a decline of 1.55 percent (see Table 4).

                                Table 4. Delayed Mail Volume


                                Total Delayed                                Percentage of
           Period                                        Total FHP               FHP
   Before Consolidation
                                  77,029,102            1,193,929,553               6.45%
   FY 2012, Qs 1 and 2

   After Consolidation
                                  64,626,845            1,318,909,098               4.90%
   FY 2013, Qs 1 and 2
  Source: EDW.




                                                  5
New Castle and Greensburg, PA Consolidation                                                             NO-AR-13-004



Employee Impact

Consolidation of the New Castle P&DF and Greensburg CSMPC into the Pittsburgh
P&DC did not result in any job losses, although management transferred affected
employees to other facilities within 50 miles of the losing facility.

Specifically:

   There was a reduction of 110 career craft positions (clerk, mail handler, and
    maintenance) and elimination of two Executive and Administrative Schedule (EAS)
    positions at the New Castle P&DF.

   There was a reduction of 59 career craft positions (clerk, mail handler, and
    maintenance) and elimination of five EAS positions at the Greensburg CSMPC.

   Thirty employees displaced from the New Castle P&DF consolidation maintain
    retreat rights8 at the New Castle P&DF. This means they have first preference for
    any available positions at the New Castle P&DF.

   Twenty-one employees (clerk, mail handler, and maintenance) left voluntarily and
    65 employees were involuntarily transferred to other facilities within 50 miles of the
    New Castle P&DF. Three craft employees retired.

   One clerk voluntarily transferred, 48 clerks involuntarily transferred to other facilities
    within 50 miles of the Greensburg CSMPC, and six craft employees retired.

   Ninety-five craft and two EAS employees were eligible for retirement from the
    New Castle P&DF and Greensburg CSMPC. In fact, the Postal Service offered
    two early out incentives9 during the time employees were scheduled to be excessed
    from these facilities.

   Neither the New Castle P&DF nor the Greensburg CSMPC AMP proposals included
    relocation costs for the affected employees since all relocations were within
    50 miles.




8
  An involuntarily reassigned employee may exercise retreat rights when a vacancy occurs at the original office from
which the employee was transferred. Employees retain retreat rights until they decline an offer to return to the loosing
facility.
9
  Early out incentives include a mail handler early out incentive offered on August 31, 2012; and the American Postal
Workers Union incentive offered on January 31, 2013.

                                                           6
New Castle and Greensburg, PA Consolidation                                                             NO-AR-13-004



Efficiency

Mail processing FHP productivity at the Pittsburgh P&DC improved after the
consolidation. The Pittsburgh P&DC's FHP productivity10 increased by 23 percent, or
from 1,116 mailpieces per hour to 1,379 mailpieces per hour, compared to the same
period last year (see Table 5).

                           Table 5. Productivity Impact – Pittsburgh P&DC

                                                                                 Total Pieces
                                                                                   Handled
                               FY                FHP Productivity                Productivity

                              2012                        1,116                       1,885

                              2013                        1,379                       2,274

                   Percentage Change                    23.61%                      20.61%
                   Source: EDW.

Cost Savings

The Postal Service estimated the cost savings from the New Castle P&DF and
Greensburg CSMPC consolidation to be $2,161,269 in the first year, while the OIG
estimated first year cost savings of $3.3 million and $8.9 million annually in subsequent
years. The difference in the Postal Service and OIG estimates is due to differences in
workhour adjustments, maintenance, and transportation costs (see Table 6).




10
     FHP divided by workhours is FHP productivity. This number is useful when evaluating overall productivity.

                                                            7
New Castle and Greensburg, PA Consolidation                                                          NO-AR-13-004




                                         Table 6. Overall Savings

                                               AMP Projected OIG Projected
          Savings Category                     Savings (Loss) Savings (Loss)                      Difference

Mail Processing Workhour                          $5,245,730              $7,941,930              $2,696,200
Savings*
Postal Career Executive Service/
EAS Supervisor Workhour                               863,575               849,798                (13,777)
Savings**
Transportation Savings***                             241,412              (614,470)               (855,882)

Maintenance Savings****                            1,386,852                 710,896              ( 675,956)

Annual Savings                                     7,737,569               8,888,154              1,150,585

One-Time Cost                                      (5,576,300)            (5,576,300)                   --

Total First Year Savings                          $2,161,269              $3,311,854              $1,150,585
*Our calculations indicate the actual workhour savings will exceed the projected savings in the AMP.
**No verification necessary, as amount is immaterial.
***After the consolidation, additional highway contract route trips resulted in additional costs of $432,565 and
$373,949 for the New Castle P&DF and Greensburg CSMPC.
****Savings consists of maintenance workhour savings and spare parts inventory. Our calculations indicate that the
projected savings in the AMP will not be fully realized.
Source: EDW.

AMP Guidelines

The Postal Service complied with the stakeholder communications policies and
procedures, and employees generally followed the AMP guidelines; however, there
were instances where some of the AMP study steps were not completed within
established timeframes. Not meeting these timeframes did not adversely affect the
consolidation when implemented (see Table 7 for the New Castle P&DF AMP and
Table 8 for the Greensburg CSMPC AMP timelines).




                                                         8
New Castle and Greensburg, PA Consolidation                                   NO-AR-13-004




                             Table 7. New Castle P&DF – Timeline of Events

                                                                              Was Step
                                                                             Conducted
               New Castle P&DF                     Date     Was Step         Within AMP
                      Events                     Completed Conducted?        Timeframe?
The area vice president (AVP) notified the
district or the district notified the AVP of the  9/15/2011   Yes               Yes
intent to conduct study.
Stakeholders were notified of the intent to
                                                  9/15/2011   Yes               Yes
conduct study.
District manager completed feasibility study
and submitted to AVP within 2 months of           1/13/2012   Yes               No11
notification to conduct study.
District held public input meeting within
                                                 12/15/2011   Yes               Yes
45 days of study being submitted to AVP.
District summarized information from public
meeting and written comments within              12/15/2011   Yes               Yes
15 days of meeting.
Area and headquarters personnel reviewed
the feasibility study within 60 days of the       1/30/2012   Yes               Yes
time the study was submitted to the AVP.
AVP approved the study after finalized
worksheets were approved by area and
                                                  1/30/2012   Yes               Yes
headquarters, and submitted study to senior
vice president (SVP), Operations.
SVP approved study within 2 weeks of
                                                  2/18/2012   Yes               No12
receipt from AVP.
 Source: New Castle AMP.




11
     Fifty-nine days late.
12
     Five days late.

                                                   9
New Castle and Greensburg, PA Consolidation                                                             NO-AR-13-004



                       Table 8. Greensburg CSMPC – Timeline of Events

                                                                                                     Was Step
                                                                                                    Conducted
               Greensburg CSMPC                                  Date     Was Step                  Within AMP
                    Events                                     Completed Conducted?                 Timeframe?
The AVP notified district or district notified                  9/15/2011            Yes                  Yes
AVP of the intent to conduct study.
Stakeholders were notified of the intent to
                                                                9/15/2011            Yes                  Yes
conduct study.
District manager completed feasibility study
and submitted to AVP within 2 months of                         1/13/2012            Yes                  No13
notification to conduct study.
District held public input meeting within
                                                               12/21/2011            Yes                  Yes
45 days of study being submitted to AVP.
District summarized information from public
meeting and written comments within                            12/21/2011            Yes                  Yes
15 days of meeting.
Area and headquarters reviewed the
feasibility study within 60 days of the time                    1/27/2012            Yes                  Yes
the study is submitted to the AVP.
AVP approved the study after finalized
worksheets were approved by area and
                                                                1/27/2012            Yes                  Yes
headquarters and submitted study to SVP,
Operations.
SVP approved study within 2 weeks of
                                                                2/18/2012            Yes                  No14
receipt from AVP.
Source: Greensburg AMP.

Facility Leases

The Postal Service did not terminate the leases on facilities and parking areas15 that
were either vacated or scheduled to be vacated as a result of the consolidation.16 In
addition, no attempt was made to sublet facilities when permitted by the lease
agreement. Postal Service area and facility officials did not coordinate to ensure that
leases associated with the vacated facilities were properly terminated or subleased.
As a result, we are questioning $978,954 in associated lease costs. See Appendix B for
a detailed explanation of questioned costs.
13
   Fifty-nine days late.
14
   Eight days late.
15
   The Greensburg CSMPC, New Castle Carrier Annex, and parking area.
16
   According to Handbook RE-1, U.S. Postal Service Facilities Guide to Real Property Acquisitions and Related
Services, when the requiring organization no longer needs a leased facility, it must submit a Postal Service
Form 7437, Facilities Services Request, to notify the responsible service organization. Available options may involve
termination of the existing lease, sale of the leasehold interest, renewal of the lease, or sub-letting the space. The
Facilities Services Request must be submitted in a timely manner to allow action by the responsible service
organization in accordance with provisions of the lease.

                                                          10
New Castle and Greensburg, PA Consolidation                                                         NO-AR-13-004



      Greensburg CSPMC lease – the facility was vacated on January 31, 2013. The
       lease ends November 2015 and does not contain a termination clause; however, the
       lease does allow the Postal Service to sublet the facility. As a result, we are
       questioning monthly lease and utility payments made from February 2013 through
       August 2015, totaling $568,290.17

                                  Figure 2. Vacant Greensburg P&DF




              Source: OIG photograph taken March 6, 2013.

      New Castle Carrier Annex lease and parking – nine carriers reporting to the
       New Castle Carrier Annex are scheduled to vacate the annex and move to the
       New Castle P&DF in July 2013. The existing lease agreement, effective October 1,
       2008, expires September 30, 2023, and does not include a termination clause.
       Subsequently, the New Castle Carrier Annex will be vacant and the Postal Service
       has no plans to use the building. To date, the Postal Service has not attempted to
       sublease this space as allowed by the lease agreement. Failure to take appropriate
       action will cost the Postal Service $290,54418 in unnecessary lease and utility
       payments over the next 2 years.




17
     Monthly lease payment and average monthly utilities of $18,943 for 30 months, February 2013 – August 2015.
18
     Monthly lease payment and average monthly utilities of $12,106 for 24 months, October 2013 – September 2015.

                                                         11
New Castle and Greensburg, PA Consolidation                                                         NO-AR-13-004



                                 Figure 3. Vacant Greensburg P&DF




            Source: OIG photograph taken March 6, 2013.

    New Castle Carrier Annex parking lease – there is sufficient parking at the
     New Castle Carrier Annex for the nine carriers working at the facility. The annex’s
     lease extends to September 2023 and provides 119 employee parking spaces;
     therefore, the Postal Service should exercise the termination clause for the
     21 additional parking spaces. Failure to take appropriate action will cost the Postal
     Service $120,12019 in unnecessary lease payments until the lease ends
     December 31, 2023.

Other Matters - Security Violation

During audit fieldwork, we observed a security violation at the Greensburg Post Office.
Specifically, Voyager eFleet cards20 were stored in an unlocked case on the workroom
floor (see Figure 4). These cards could be taken and used for unauthorized purchases.
As a result, we estimated that $636,000 in assets could be at risk. See Appendix B for a
detailed explanation of assets at risk.




19
   Annual monthly parking fees increase from $840 to $1,008 over the entire lease term. Lease term ends
December 31, 2023.
20
   A credit card used to purchase fuel or repair services for Postal Service vehicles.

                                                        12
New Castle and Greensburg, PA Consolidation                                   NO-AR-13-004




                        Figure 4. Unsecured Voyager eFleet Cards
                       in Unlocked Case at the Greensburg CSMPC




          Source: OIG photograph taken May 2, 2013.

Recommendations

We recommend the vice president, Eastern Area, direct the Western Pennsylvania
District manager to:

1.   Coordinate with the Facility Service Office when rental space is vacated to ensure
     management takes appropriate lease termination actions.

2.   Pursue action to sublease or terminate lease agreements for vacated facilities.

3. Ensure Voyager eFleet credit cards are stored in a secure manner.


Management’s Comments

Management agreed with the findings, recommendations, and monetary impact in the
report. Specifically, management stated that, in response to recommendation 1,
effective July 23, 2013, the Eastern Area received approval for a Customer Relations
manager position within the area office to coordinate with facilities as it relates to
vacated facilities. In response to recommendation 2, effective July 23, 2013, the
facilities department is in agreement that leased space should be terminated or
subleased when possible. The Greensburg CSMPC is on the market for sublease and

                                                      13
New Castle and Greensburg, PA Consolidation                                  NO-AR-13-004



vacated New Castle Carrier Annex will be put-up for buyout or sublease. Finally, an
evaluation is being conducted on the parking at the New Castle Carrier Annex to
determine whether retaining the parking is beneficial. If not, notice will be given to
terminate the parking. In response to recommendation 3, effective July 23, 2013, the
Voyager efleet Cards are secured and considered an accountable item to be signed for
by the individual carriers. See Appendix C for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. The OIG considers
recommendation 1 significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective action is
completed. This recommendation should not be closed in the Postal Service’s follow-up
tracking system until the OIG provides written confirmation that the recommendation
can be closed.




                                              14
New Castle and Greensburg, PA Consolidation                                                               NO-AR-13-004



                                  Appendix A: Additional Information
Background

The Postal Service concluded FY 2012 with a net loss of $15.9 billion. Additionally, the
Postal Service continues to grow revenue and reduce expenses by using the tools
available to it under existing law; however, without passage of comprehensive
legislation to provide the Postal Service with a workable business model for today’s
marketplace, large quarterly financial losses will continue.

Faced with a massive nationwide infrastructure that is no longer financially sustainable,
the Postal Service has proposed sweeping changes designed to save the organization
up to $3 billion a year by cutting its network of processing facilities by over half and
adjusting service standards. In October 2011, the Postal Service created a portfolio of
36 strategic initiatives21 to meet ambitious performance and financial goals. Included in
these initiatives is network optimization through reducing the number of plants, adjusting
the workforce, and increasing the use of processing equipment. Additionally, a
bipartisan Senate bill titled, "21st Century Postal Service Act of 2011," proposed on
November 2, 2011, would provide the Postal Service about $7 billion to pay for
employee buyouts of up to $25,000, for as many as 100,000 eligible postal workers.

On February 29, 2012, U.S. Senator Robert P. Casey, Jr. requested the OIG to review
the consolidation of the New Castle and Greensburg facilities into the Pittsburgh P&DC.
Specifically, Senator Casey’s concerns include:

    The potential impact of the consolidation on Pennsylvania.

    The ability to maintain service standards while reducing capacity and increasing the
     distance mail must be transported for processing.

    The possibility of the facilities’ closure having a negative impact on businesses and
     causing signficant hardship if jobs are lost after the consolidation.

This report reviews the consolidation of destinating mail processing operations from the
New Castle P&DF and Greensburg CSMPC into the Pittsburgh P&DC. The New Castle
P&DF and the Greensburg CSMPC consolidation occurred on August 11 and July 28,
2013. All three facilities are in the Western Pennsylvania District of the Eastern Area
(see Figures 5 and 6).




21
   The Postal Service established the Delivering Results, Innovation, Value, and Efficiency (DRIVE) initiative in
October 2011. DRIVE is a management process the Postal Service uses to improve business strategy development
and execution. It is based on a well-established method used by many corporations to apply strategic and financial
rigor to decision making and to navigate through significant organizational changes. DRIVE is focused on a portfolio
of 36 strategic initiatives that the Postal Service will implement to meet its ambitious performance and financial goals.


                                                           15
New Castle and Greensburg, PA Consolidation                         NO-AR-13-004



                                 Figure 5. New Castle P&DF




            Source: New Castle AMP.

                                Figure 6. Greensburg CSMPC




                                Pittsburgh
                                  P&DC




                                                       Greensburg
                                                        CSMPC




            Source: Greensburg AMP.




                                              16
New Castle and Greensburg, PA Consolidation                                 NO-AR-13-004



Objectives, Scope, and Methodology

Our objectives were to assess the consolidation of destinating mail processing
operations from the New Castle P&DF and Greensburg CSMPC into the Pittsburgh
P&DC and assess compliance with established AMP guidelines. We interviewed Postal
Service officials and reviewed applicable guidelines, including Handbook PO-408.
Additionally, we analyzed workhours, mail volume, employee complement,
transportation, and maintenance factors. We reviewed data from FY 2012, Qs 1 and 2,
and FY 2013, Qs 1 and 2, to analyze efficiencies at the Pittsburgh P&DC. To
accomplish our objectives, we used computer-generated data from the following
systems:

   Electronic Facilities Management System.
   EDW.
   Web Complement Information System.
   Web End-of-Run.

We conducted this performance audit from February through August 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on July 2, 2013, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




                                              17
New Castle and Greensburg, PA Consolidation                                  NO-AR-13-004



Prior Audit Coverage

                                                        Final
                                                       Report
         Report Title            Report Number          Date         Monetary Impact
Oxnard, CA Processing and         NO-AR-12-004        3/6/2012              None
Distribution Facility
Destinating Mail
Consolidation
Report Results:
A business case existed to support the consolidation. Management agreed with our
recommendations to monitor customer service measurement, 24-hour clock
indicators, delayed mail, and staffing levels to ensure mail is processed timely.

Consolidation of Mail              NO-AR-12-003          1/20/2012          None
Processing Operations at
the Mansfield, OH Customer
Service Mail Processing
Center
Report Results:
A business case supporting the consolidation exists, producing a first year savings of
about $4.8 million if the Postal Service successfully repositions affected employees.
We recommended management identify repositioning plans for all impacted
employees at the CSMPC and continue to monitor and take necessary actions to
process mail in a timely fashion at the Cleveland P&DC.


Industry, CA Processing and       NO-AR-12-002         10/17/2011       $1,321,651
Distribution Center
Originating Mail
Consolidation
Report Results:
A valid business case exists to consolidate originating mail processing operations
from the industry P&DC into the Santa Ana P&DC to achieve a cost savings of about
$1.32 million annually. We made no recommendations.




                                              18
New Castle and Greensburg, PA Consolidation                                   NO-AR-13-004




                                                          Final           Monetary
         Report Title            Report Number        Report Date          Impact
Oshkosh, WI Processing and        NO-AR-11-006          7/29/2011           None
Distribution Facility
Consolidation
Report Results:
Although the consolidation would result in cost savings, adequate facility and
machine capacity does not exist at the Green Bay P&DC to process the additional
mail volume and service could be negatively impacted. Management agreed with
both recommendations, saying they will reevaluate the workroom floor space/layout
and dock space and reassess letter and flat processing machine capacity at the
Green Bay P&DC. However, they disagreed with the logic used in our analysis of
floor space needs, asserting the analysis was too high level. Also, management did
not believe there was an issue with the letter processing capacity, and believed the
equipment set was sufficient.

Implementation of Lima, OH         EN-AR-11-004          3/31/2011         $105,125
to Toledo, OH Area Mail
Processing Consolidation
Report Results:
While there was a valid business case for consolidation of the Lima P&DF into the
Toledo P&DC, management did not ensure on-time performance and customer
service was improved or maintained during the implementation of the consolidation.
We recommended management promptly assess the current mail volume and swiftly
adjust workhours, sort plans, transportation, and any other operational requirements;
expedite filling vacant positions and assess any additional staffing requirements at all
levels; assess and take appropriate corrective action related to mail processing
space and transportation issues; and establish and deploy formal AMP
implementation teams to the gaining facilities for plant consolidation that result in a
facility closure. Management agreed with the recommendations.




                                              19
New Castle and Greensburg, PA Consolidation                                 NO-AR-13-004




                                                         Final        Monetary
          Report Title             Report Number Report Date           Impact
Columbus, GA Customer               NO-AR-11-005     2/14/2011          None
Service Mail Processing
Center Originating Mail
Consolidation
Report Results:
A favorable business case existed to support consolidating the Columbus CSMPC’s
originating mail operation into the Macon P&DC. We made no recommendations.

Houston, TX Processing and          NO-AR-11-004     12/14/2010    $189,744,682
Distribution Center Mail
Consolidation
Report Results:
A business case exists to consolidate the Houston P&DC’s mail processing
operations into the North Houston P&DC. We recommended management postmark
outgoing letter mail cancelled at the North Houston P&DC with a combined
postmark, update employees on the consolidation process, and monitor service
scores during implementation. Management agreed with the recommendations.

Marysville, CA Processing         NO-AR-11-002        11/23/2010           None
and Distribution Facility
Consolidation
Report Results:
We assessed the operational impacts of the consolidation and determined that a
valid business case existed for consolidating mail processing operations from the
Marysville P&DF into the Sacramento P&DC. We made no recommendations.




                                              20
New Castle and Greensburg, PA Consolidation                              NO-AR-13-004




                                                         Final          Monetary
          Report Title            Report Number Report Date              Impact
Review of Wilkes-Barre, PA        NO-AR-11-001         10/4/2010           None
Processing and Distribution
Facility Consolidation
Report Results:
We assessed the operational impacts of the consolidation and determined that a
valid business case existed for consolidating mail processing operations from the
Wilkes-Barre P&DF into the Scranton P&DF and the Lehigh Valley P&DC. We made
no recommendations.


Charlottesville, VA Processing    NO-AR-10-008        8/3/2010           None
and Distribution Facility
Consolidation
Report Results:
There was a valid business case for consolidating mail processing operations from
the Charlottesville P&DF into the Richmond P&DC. We made no recommendations.




                                              21
New Castle and Greensburg, PA Consolidation                                                        NO-AR-13-004



                            Appendix B: Monetary and Other Impacts

                                              Monetary Impact

      The Postal Service did not properly terminate or sublet vacated facilities. As a
      result, we are questioning $978,954 in associated lease costs.

        Recommendation                           Impact Category                           Amount
              1                                 Questioned Costs22                         $978,954


                                                Other Impact

     Unauthorized use of unsecured Voyager eFleet cards at the Greensburg Post
     Office would put assets at risk.23

          Recommendation                      Impact Category                          Amount
                2                           Assets Items at Risk24                     $636,000




22
   Questioned cost includes unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation,
contract, and so forth. May be recoverable or unrecoverable. Usually a result of historical events.
23
   We calculated annual assets at risk by multiplying the monthly Voyager eFleet card maximum limit of $1,000 by
12 (months) and multiplying that number by 53 (the number of Voyager eFleet cards at the Greensburg Post Office).
24
   Assets that are at risk of loss because of inadequate internal controls.


                                                        22
New Castle and Greensburg, PA Consolidation                   NO-AR-13-004



                          Appendix C: Management's Comments




                                              23
New Castle and Greensburg, PA Consolidation        NO-AR-13-004




                                              24
New Castle and Greensburg, PA Consolidation        NO-AR-13-004




                                              25
